      Department of Homeland Security





            Free and Secure Trade Program – 

               Continued Driver Eligibility 





OIG-12-84                                       May 2012

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov
 
                                      MAY 21 2012 
 
MEMORANDUM FOR:	             Kevin K. McAleenan 
                             Acting Assistant Commissioner 
                             Office of Field Operations 
                             U.S. Customs and Border Protection 
 
FROM:	                       Anne L. Richards 
                             Assistant Inspector General for Audits  
 
SUBJECT:	                    Free and Secure Trade Program – Continued Driver 
                             Eligibility – For Official Use Only 
 
Attached for your action is our final report, Free and Secure Trade Program – Continued 
Driver Eligibility – For Official Use Only.  We incorporated the formal comments from the 
U.S. Customs and Border Protection (CBP) in the final report.    
 
The report contains three recommendations aimed at improving CBP’s processes to 
ensure continued driver eligibility in the Free and Secure Trade program.  Your office 
concurred with all three recommendations.  As prescribed by the Department of 
Homeland Security Directive 077‐1, Follow‐Up and Resolutions for the Office of 
Inspector General Report Recommendations, within 90 days of the date of this 
memorandum, please provide our office with a written response that includes your 
(1) agreement or disagreement, (2) corrective action plan, and (3) target completion 
date for each recommendation.  Also, please include responsible parties and any other 
supporting documentation necessary to inform us about the current status of the 
recommendations.  Until your response is received and evaluated, the 
recommendations will be considered open and unresolved. 
 
Consistent with our responsibility under the Inspector General Act, we are providing 
copies of our report to appropriate congressional committees with oversight and 
appropriation responsibility over the Department of Homeland Security.  We will post a 
redacted version of the report on our website. 
 
Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant 
Inspector General for Audits, at (202) 254‐4100. 
 
Attachment 
 
                                               


                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1

   Background ......................................................................................................................... 2

   Results of Audit ................................................................................................................... 3

              Improvements Are Needed To Ensure the Continued Eligibility of Drivers in the
              FAST Program and To Monitor the Program’s Effect on Border Security Risk ....... 3
              Recommendations .................................................................................................. 9
              Management Comments and OIG Analysis ............................................................ 9

   Appendixes
    

        Appendix A:           Objectives, Scope, and Methodology ................................................. 12 

        Appendix B:           Management Comments to the Draft Report .................................... 14 

        Appendix C:           Major Contributors to This Report ..................................................... 17 

        Appendix D:           Report Distribution ............................................................................. 18 


   Abbreviations
        CBP                   U.S. Customs and Border Protection
        CJIS                  Criminal Justice Information Services
        CPIC                  Canadian Police Information Centre
        DHS                   Department of Homeland Security
        FAST                  Free and Secure Trade Program
        FY                    fiscal year
        III                   Interstate Identification Index
        NCIC                  National Crime Information Center
        OIG                   Office of Inspector General




www.oig.dhs.gov                                                                                                                 OIG-12-S4
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   The U.S. Customs and Border Protection (CBP) Free and Secure Trade program is a
   border accord initiative among the United States, Canada, and Mexico, designed to
   ensure security and safety of interborder commerce while enhancing the economic
   prosperity of each country. Under the program, participants who meet certain eligibility
   criteria are considered low risk and receive expedited border processing. This enables
   CBP to redirect security efforts and inspections to commerce that is high or unknown
   risk while ensuring the movement of legitimate, low-risk commerce. We reviewed the
   Free and Secure Trade Program to determine whether the program’s continued
   eligibility processes ensure that only eligible drivers remain in the program.

   The Free and Secure Trade program’s continued eligibility processes do not ensure that
   only eligible drivers remain in the program. CBP is hampered in its ability to ensure that
   Mexican citizens and residents in the program are low risk because
                                             and Mexico does not share the southern border
   Free and Secure Trade program with the United States to vet and continuously monitor
   drivers’ eligibility. Also, the program’s Continuous Vetting process does not assess all
   violations and criminal information that may render drivers ineligible to participate in the
   Free and Secure Trade program. The information excluded from this process is reviewed
   every 5 years. As a result, ineligible drivers may be actively enrolled in the program,
   exposing the agency to increased risk of compromised border security. In addition, CBP
   has not implemented a process to assess the effect of the program on border security.
   CBP should determine whether Free and Secure Trade participation has increased or
   decreased border security risk at land ports of entry and, if needed, establish control
   processes to mitigate any additional risk.

   We made three recommendations intended to improve CBP’s processes to ensure
   continued driver eligibility in the Free and Secure Trade program. CBP management
   concurred with all three recommendations.




www.oig.dhs.gov                                1                                         OIG-12-S4 

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


   Background
   The Free and Secure Trade (FAST) program was initiated after September 11, 2001, as a
   border accord initiative among the United States, Canada, and Mexico to ensure the
   security and safety of interborder commerce while enhancing the economic prosperity
   of each country. The program goal is to promote free and secure trade by using
   common risk management principles, supply chain security, industry partnership, and
   advanced technology to improve the efficiency of screening and clearing commercial
   traffic at our shared borders.

   The supply chain security requirements associated with the FAST program are layered,
   meaning that to be considered a FAST shipment, all participants (i.e., importers,
   highway carriers, commercial drivers, Southern border manufacturers) have to meet
   certain eligibility criteria. FAST participants who meet the program’s eligibility
   requirements are considered low risk and receive expedited clearance through
   designated FAST lanes at land ports of entry, fewer selections for inspections at the
   border, and front-of-the-line privilege when selected for secondary inspections. Drivers
   using the FAST lane must carry qualified cargo from a Customs-Trade Partnership
   Against Terrorism1–approved importer and possess a FAST commercial driver
   identification card. The FAST program enables CBP to redirect security efforts and
   inspections to commerce that is high or unknown risk.

   The FAST program has two processes—Continuous Vetting and Renewal—to ensure
   continued driver eligibility and maintain border security. Continuous Vetting involves a
   search of U.S. law enforcement databases every 24 hours to ensure the low-risk status
   of enrolled drivers. Renewal combines searches of law enforcement databases with in-
   person interviews, document reviews, and fingerprint identification every 5 years.

   The FAST program is divided between the northern border, FAST North, and the
   southern border, FAST South. As of June 2011, 80,177 drivers were actively enrolled in
   the FAST program. Of these, 68,528 are enrolled in FAST North and 11,649 in FAST
   South. FAST North is a joint program between the United States and Canada. To
   participate in the FAST North program, applicants must be approved by the United
   States and Canada. The FAST South program is not shared with Mexico. FAST South
   applicants must be approved only by CBP.



   1
    Customs-Trade Partnership Against Terrorism is a voluntary government-business initiative to build
   cooperative relationships that strengthen and improve the overall international supply chain and U.S.
   border security.

www.oig.dhs.gov                                      2                                                OIG-12-S4 

                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Regarding the verification of eligibility criteria, drivers in the FAST program must be
   citizens or permanent residents of the United States, Canada, or Mexico; be 18 years old
   or older; possess a valid driver’s license issued by the United States, Canada, or Mexico;
   and have a current address and primary residence in the United States, Canada, or
   Mexico. Additionally, to ensure their low risk, CBP vets FAST drivers using multiple law
   enforcement databases. These databases include TECS (not an acronym), the National
   Crime Information Center (NCIC), and the Canadian Police Information Centre (CPIC).
   CBP may deny an applicant participation in the FAST program for the following reasons:

           •      False or incomplete information in the application;
           •      Convictions, pending charges, or warrants for criminal acts;
           •      Pardons from any country for offenses that violate program requirements;
           •      Violations of customs, immigration, or agricultural laws or regulations;
           •      Active investigations by any Federal, State, or local law enforcement agency;
           •      Inadmissibility to the United States under immigration laws and regulations;
           •      Inability to satisfy CBP of low-risk status;
           •      Found ineligible by a country participating in the program.

   The FAST program is one of CBP’s trusted traveler programs. CBP trusted traveler
   programs provide expedited travel for preapproved, low-risk travelers through
   dedicated lanes and kiosks. The cost of the FAST program in fiscal year (FY) 2010 was
   approximately $1.4 million, in addition to costs associated with functions shared by
   other programs (i.e., salaries).

   Results of Audit
           Improvements Are Needed To Ensure the Continued Eligibility of Drivers in the
           FAST Program and To Monitor the Program’s Effect on Border Security Risk

           The FAST continued eligibility processes do not ensure that only eligible drivers
           remain in the program. CBP is hampered in its ability to ensure that Mexican
           citizens and residents in the program are low risk because
                                                    and Mexico does not share the Southern
           border FAST program with the United States to vet and continuously monitor
           FAST drivers’ eligibility. Also, the program’s Continuous Vetting process does not
           assess all violations and criminal information that may render drivers ineligible to
           participate in the program. The information excluded from this process includes
           certain TECS, NCIC, and CPIC law enforcement data and is reviewed only every 5
           years at renewal. As a result, ineligible drivers may be actively enrolled in the
           program, exposing CBP to increased risk of compromised border security. In

www.oig.dhs.gov                                  3                                        OIG-12-S4 

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           addition, CBP has not implemented a process to assess the program’s effect on
           border security risk. CBP should determine whether FAST participation has
           increased or decreased border security risk at land ports of entry and, if needed,
           establish control measures to mitigate any additional risk.

           CBP Cannot Ensure the Low Risk of Mexican Citizens and Residents in the FAST
           Program

           CBP’s inability to assess the low-risk status of citizens or residents of Mexico in
           the FAST program for offenses committed in Mexico increases the risk of CBP’s
           border security mission being compromised by drivers in the program.

           In developing the FAST program, Canada, Mexico, and the United States agreed
           to coordinate, to the maximum extent possible, their processes for border
           clearance of commercial shipments. Canada joined the FAST North program
           with the United States. As part of the initial application and renewal processes,
           Canada Border Services Agency officers interview and approve both U.S. and
           Canadian northern border applicants. If the Canada Border Services Agency
           renders any northern applicant ineligible for the program, CBP will also deny the
           applicant without the need to obtain further details. In addition to the
           application process, the Canada Border Services Agency continuously removes
           FAST North drivers from the program. CBP also removes from the program
           drivers who have been removed by the Canada Border Services Agency without
           the need for details. Our review of 235 FY 2010 Fast North driver revocations
           and 112 FY 2010 FAST North denied renewal applications showed that the
           Canada Border Services Agency determined 160 (68 percent) of the FAST North
           revocations and 13 (12 percent) of the FAST North denied renewal applications.

           In addition to the denials and revocations completed by the Canada Border
           Services Agency, Canada allows CBP access to the CPIC to vet FAST applicants
           during initial application and for renewals. A review of 112 FY 2010 FAST North
           denied renewal applications showed that 12 applications were denied because
           of violations identified by CBP in the CPIC.

           This type of cooperation is not in place between the United States and Mexico
           for the FAST South program. Although an arrangement existed between Mexico
           and the United States for cooperating to the maximum extent possible when
           implementing the program, FAST South is not a joint program between the two
           countries, and they do not share information for vetting and continuously
           monitoring FAST South drivers’ eligibility. For the southern border, the vetting
           and continuous monitoring of FAST drivers are completed exclusively by CBP.

www.oig.dhs.gov                                4                                          OIG-12-S4 

                                 OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


           CBP does not





           CBP Does Not Continuously Monitor All Available Information That Could
           Render a Driver Ineligible

           The Continuous Vetting process                process in place for recurrent
           monitoring of FAST drivers’ eligibility. This process is designed to screen only for
           subjects deemed of law enforcement interest in TECS and the NCIC
                                                                          may render a driver 

           ineligible to participate in the program. The databases available to CBP to vet
           FAST drivers for violations and criminal information, such as TECS, the NCIC, and
           the CPIC, are
                            CBP thoroughly checks all of these databases for all of types of
           information that could render a driver ineligible at the initial application and the
           5-year renewal. Information excluded from the Continuous Vetting process is
           not verified during the 5-year period between applications. For example:


                  •	 The NCIC is a U.S. computerized index of criminal justice information
                     (e.g., criminal history information, and information on fugitives, stolen
                     properties, and missing persons) maintained by the Federal Bureau of
                     Investigation. The Continuous Vetting process screens




                  •	 The CPIC is a Canadian computerized system with tactical information
                     about crimes and criminals (e.g., stolen property, wanted persons,
                     criminal history information) maintained by the Royal Canadian Mounted
                     Police. Information in this system could make a driver ineligible for the

www.oig.dhs.gov                                  5	                                        OIG-12-S4 

                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                     FAST program. CBP vets applicants in the CPIC at the time of initial 

                     application and every 5 years at renewal.




                  •	 TECS is a law enforcement and antiterrorism database, principally owned
                     and managed by CBP. TECS includes information on temporary and
                     permanent enforcement, inspection, and intelligence records relevant to
                     the antiterrorism and law enforcement mission of CBP and other Federal
                     agencies. The Continuous Vetting process monitors records of subjects
                     deemed to be of law enforcement interest that have been entered or
                     updated within the previous 24 hours.




           We tested a sample of 136 FY 2010 applications denied at the point of renewal,
           of which 123 (90 percent) were denied by CBP. CBP denied 30 renewal
           applications for offenses committed up to 5 years before the renewal point. In
           all these cases, the derogatory information that rendered these drivers ineligible
           was available either in TECS, the CPIC, or the NCIC, but this information was not
           part of the Continuous Vetting process, and CBP did not remove these drivers
           until their 5-year renewal application was processed. These drivers remained in
           the FAST program for up to 5 years before they were deemed ineligible by CBP.

www.oig.dhs.gov                                  6	                                           OIG-12-S4 

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Table 1 shows the types of violations that made drivers in our sample ineligible 

           for the program.

           Table 1: Reasons for Drivers’ Ineligibility

                                  Reason                    Number of Drivers
                  Criminal Violations                               16
                  Customs, Agricultural, and 

                  Immigration Violations
                            8

                  Links to Drug Smuggling or Terrorism 
             6

                                   Total                            30


           Not removing ineligible drivers from the FAST program until their 5-year renewal
           occurs exposes CBP to additional risk of compromised border security. For
           example, five drivers denied at renewal had close links to drug smugglers or
           were suspected drug smugglers, including a driver listed in TECS as a broker of
           drug shipments between the United States and Canada. Information rendering
           these drivers ineligible was available in TECS for 6 to 55 months prior to these
           drivers’ renewal point; however, they were not removed from the program until
           this derogatory information was reviewed during their 5-year renewal process.

           Another driver had close family ties to an individual on the United States
           Government consolidated terrorist watch list, making the driver ineligible for the
           FAST program. The driver remained in the FAST program for more than 3 years
           after this information was available in TECS.

           Controls Are Needed To Monitor and Mitigate the Effect of the FAST Program
           on Border Security Risk

           CBP has not implemented a process to assess the effect of the FAST program on
           border security risk. Without a robust risk assessment process, it is uncertain
           what effect the program has on border security risk at land ports of entry and
           whether current control measures are sufficient to compensate for any
           additional risk resulting from benefits provided to FAST participants.

           The FAST program facilitates the clearance of known low-risk commerce at the
           ports of entry, allowing CBP to concentrate its resources on commerce of high or
           unknown risk. FAST benefits include reduced number of examinations, which
           means that FAST shipments receive fewer selections for inspections at the
           border and expedited border processing. These benefits make the program

www.oig.dhs.gov                                  7                                      OIG-12-S4 

                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


             attractive to drug smugglers. Media coverage has emphasized the vulnerability
             of FAST drivers to the influence of drug-trafficking organizations. For example, a
             CBS News article claimed that benefits provided to FAST program participants
             (i.e., faster border processing, reduced number of inspections) attract drug
             smugglers, who often threaten drivers or offer them bribes to coerce
             participation in smuggling activities.2

             CBP’s Consolidated Trusted Traveler Handbook requires that Port Directors at
             each port of entry monitor FAST compliance rates. Compliance rates are
             calculations to determine adherence to U.S. laws at the border. If the FAST
             compliance rate is found to be equal to or lower than the compliance rate for
             non-FAST commercial traffic, Port Directors are required to take immediate
             remedial action to address the difference. Such remedial actions could entail
             increasing the number of referrals for additional inspections or implementing
             other control measures. For example, in 2006 the Otay Mesa, California, port of
             entry noticed an increase in violations and seizures related to FAST participants
             and implemented a control measure that examines selected FAST shipments.
             This control is still in place at this port and at the Calexico, California, port of
             entry, under the same field office.

             Our survey of the 24 land ports of entry with FAST enrollment centers showed
             that none of these ports is currently implementing the handbook requirement to
             monitor compliance rates. The handbook requirement to monitor the risk of the
             FAST program at the land ports of entry is not clear on how the compliance rate
             will be calculated, and clarification has not been provided to the field. More
             than half of the surveyed land ports of entry agreed that data are available to
             calculate and monitor FAST violation rates.

             Any FAST participant (i.e., importers, highway carriers, commercial drivers,
             Southern border manufacturers) who does not comply with established eligibility
             criteria could increase border security risk. It is important that CBP address
             weaknesses in ensuring the continued low risk of drivers in the FAST program
             and regularly monitor the risk that the program represents to border security so
             that it can implement remedial actions as needed.




   2
       “Drug Smugglers Aided By U.S. Truck Program,” CBS News, November 23, 2009.

www.oig.dhs.gov                                     S                                       OIG-12-S4 

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendations

           We recommend that the Customs and Border Protection’s Assistant
           Commissioner for Field Office Operations:

           Recommendation #1:

           Coordinate with the Department of State and the Mexican government to
                                                   to determine the eligibility of Mexican 

           participants in the FAST program.

           Recommendation #2:

           Develop and implement a process to recurrently verify the eligibility status of
           enrolled drivers by screening for derogatory information available to CBP that
           could render a driver ineligible for FAST.

           Recommendation #3:

           Develop and implement a process for land ports of entry to assess and
           continuously monitor the effect of the FAST program on border security risk and
           implement remedial actions as needed.

           Management Comments and OIG Analysis

           CBP submitted formal comments to our report. A copy of the CBP response is
           included as appendix B. We also received sensitivity and technical comments
           from CBP, and we have made changes to the report based on these comments.

           CBP concurred with all recommendations and offered intended corrective
           actions with projected completion dates. Our analysis of the CBP response to
           the recommendations follows.

           Recommendation #1: Coordinate with the Department of State and the
           Mexican government to                                          to determine
           the eligibility of Mexican participants in the FAST program. 





www.oig.dhs.gov                               9                                         OIG-12-S4 

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Management Response: CBP’s Office of Field Operations, in coordination with 

           CBP’s Office of International Affairs, will approach Mexican officials and discuss 

           the possibility

           OIG Analysis: CBP comments are responsive to this recommendation. However,
           it will remain open and unresolved until CBP provides documentation supporting
           the implementation of Mexican vetting to the FAST screening process or a
           substitute control.

           Recommendation #2: Develop and implement a process to recurrently verify
           the eligibility status of enrolled drivers by screening for derogatory information
           available to CBP that could render a driver ineligible for FAST.

           Management Response: The 24-hour vetting process was developed to identify
           high-risk members with an active want or warrant and/or a subject record in
           TECS. This process ensures that wanted criminals will be revoked from a Trusted
           Traveler program even before attempting to make entry into the United States.
           The continuous vetting process was not meant



           CBP’s ability to




           CBP’s Office of Field Operations will 





www.oig.dhs.gov                                10                                         OIG-12-S4 

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           OIG Analysis: This recommendation will remain open and unresolved until CBP
           provides OIG documentation supporting the implementation of corrective action
           plans for the use of information available in NCIC, CPIC, and TECS to ensure the
           continuous eligibility of drivers in the FAST program.

           Recommendation #3: Develop and implement a process for land ports of entry
           to assess and continuously monitor the effect of the FAST program on border
           security risk and implement remedial actions as needed.

           Management Response: One of the Beyond the Border initiatives is to “enhance
           facilities to support trusted trader and traveler programs.” In this initiative, a
           review of the FAST program will be conducted by CBP and Canada Border
           Services Agency. As part of the review, CBP and Canada Border Services Agency
           will analyze FAST and determine if future infrastructure investments are
           warranted. CBP will determine the best options to build and monitor the
           outcome of the FAST program while facilitating known low-risk “trusted traveler
           members.”

           OIG Analysis: CBP comments are responsive to this recommendation. However,
           this recommendation will remain open and resolved until CBP provides
           documentation describing the steps planned to assess and continuously monitor
           the effect of the FAST program on border security risk and implement remedial
           actions as needed; and provides documentation supporting their implementation.




www.oig.dhs.gov                               11                                       OIG-12-S4 

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The DHS Office of Inspector General (OIG) was established by the Homeland Security Act
   of 2002 (Public Law 107-296) by amendment to the Inspector General Act of 1978. This
   is one of a series of audit, inspection, and special reports prepared as part of our
   oversight responsibilities to promote economy, efficiency, and effectiveness within the
   Department.

   This report provides the results of our work to determine whether the CBP FAST
   program’s continued eligibility process ensures that only eligible drivers remain in the
   program. To accomplish our audit objective and gain an understanding of internal
   control that is significant within the context of the audit objective, we reviewed CBP
   policies, procedures, management directives, standard operating procedures, and plans
   to ensure the continued eligibility of drivers in the program.

   We interviewed CBP personnel responsible for the FAST program at the Vetting Center
   in Williston, Vermont, and three enrollment centers and ports of entry in Champlain,
   New York; Otay Mesa, California; and El Paso, Texas. We also observed operations at
   the Vetting Center and the enrollment center and port of entry in Champlain, New York.

   We tested a random sample of 294 hits from a population of 1,774 hits for FY 2010 from
   the daily 24-hour vetting process to determine the appropriateness and timeliness of
   decisions made and actions taken by CBP personnel. We tested a sample of 382 active
   FAST drivers who are Canadian residents against the CPIC database to determine
   whether any derogatory information that occurred after the driver’s last application
   that would make drivers ineligible has not been detected by CBP. We reviewed a
   statistical sample of 136 records from the population of FY 2010 denied FAST renewal
   applications to determine whether the derogatory information that resulted in denials
   was available and should have been acted upon before the application renewal stage.
   We reviewed a statistical random sample of 264 records for FY 2010 FAST driver
   revocations to determine what prompted the revocations and evaluate any differences
   in reasons and avenues for revocations between FAST North and FAST South.

   We interviewed officials and personnel from various offices, including the Trusted
   Traveler Program Office, Headquarters Cargo, Customs-Trade Partnership Against
   Terrorism, the Vetting Center, and Project Planning Analysis and Evaluation to
   determine whether the FAST program risk is being monitored. We surveyed 24 land
   port directors and performed followup interviews with selected land ports and
   respective field offices to determine whether the risk of the FAST program is being

www.oig.dhs.gov                              12                                       OIG-12-S4 

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   monitored at the ports of entry and remedial actions are being implemented if needed.
   We did not review whether FAST participants are receiving program benefits.

   To assess the reliability of data, we (1) reviewed documentation related to the systems,
   (2) made inquiries of knowledgeable agency officials about the systems, (3) reviewed
   the data for obvious inconsistency errors, and (4) reviewed documentation related to
   data sources for sampled records. We relied on computer-generated data from TECS.
   Based on our assessment, we determined that the data were sufficiently reliable for the
   purposes of our report.

   We conducted this performance audit between May and October 2011 pursuant to the
   Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                              13                                       OIG-12-S4 

                                              OFFICE OF INSPECTOR GENERAL
                                                     Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report
                                                                                                               1100 Penn \yh.m!..t A\'t nur: }>,rw




                                                                                              •
                                                                                                              \\'.!.shlngton, IX: 20129


                                                                                                    "
                                                                                                J':           u.s. Customs and
                                                                                                              Border Prottction
                                                                                                    , ,



                                                                                                                         March 8, 20 12




                  Charles K, Edwards
                  Acting Inspector General
                  Department of Homeland Security
                  245 Murray Drive, SW. Building 410
                  Washington. DC 20528

                  Re: The Office of Inspector General's Draft Report Entitled, " Free and Se<:ure Trade
                      Program. Continued Driver Eligibility· For Official Use Only"

                  Dear M r. Edwards:

                           Thank you for the opportunity to review and comment on the Office of Inspector
                  General's (DIG's) draft report entitled "Free and Secure Trade Program· Continued Driver
                  Eligibility. For Official Usc Onl y," (project no. OI0-II-024·A UD-CB P), U.S. Customs
                  and Border Protection (CBP) appreciates the O IO's work in planning and conducting ils
                  review and issuing this report,

                          The report contains three recommendations directed to CBP Assistant
                  Commissioner Office o f Field Operations (OFO), A summary o rCBP actions and
                  corrective plans to address the recommendations is provided below:

                  Reco mm endA tion #1: Coordinate with the Department of State and the Mexican
                  government to                                           to detennine the eligibility of
                  Mexican participants in the Free and Secure Trade program (FAST).

                  COP Respo nse: Concur . CBP's OFO. in coordination with CBP's Office o;:,f.ln.'iem
                                                                                                   . ' ii
                                                                                                       tional
                          liiilil.                         1                 .
                                                                 discuss the possibililY 01 1


                  Co mpl Clion     D ~lc :   December 3 1, 2012


                                                                FO R OFFICIAL US[ ONLY

                  W,\JlNIN G: Thi~ docum~nt is ~'O R OFFICIAL USE ONLY (t-OUO). II co ntains in rorma tion Ihal may ~ utmpl
                    from pllb lic rd~ ne und~r the t'rudom or Inrormatlon Att (S U.S.C. 552). II il to be co ntrolled. nored. hlndled.
                  I r.1n~miUfd, d iu ri buttd. anti d lSpOStd of In .((ord an(t " 'ith OilS polity rf t ~ting 10 FOUO inrormation and is n(lt
                  10 b" rdturd 10 thr pllblic or oth rr prno nn d " 'ho do not hl't. ,·. Iid "netd_to-know with out prior Ippro.·al of
                                                                                                               M



                                                                   In lut horl7.td DlIS omrll l,




www.oig.dhs.gov                                                                  14                                                                  OIG-12-S4 

                                                      OFFICE OF INSPECTOR GENERAL
                                                           Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                2
              Rc~o mm c nd ation    #2: Develop and implement a process 10 recurrently verify the
              eligibility status of enrolled drivers by screening fo r deroga tory information available to
              CBP that could render a driver ineligible for FAST.

              C UP Res ponse: Concur. The 24-hour vClling proces.c; was developed to identify high·risk
              members with an active wan t or warl1lnt and/or a subject record in TEeS. This process
              ensures wanted crim inals will be revoked from a Trusted Traveler




                           •    •    I   0• • •   "   ••       •      •




              Completion ODI C: December J 1, 2012

              Reco nlnu:nda lion #3: Develop and implement a process for land pons of entry to asses.c;
              and continuously monitor the effect of the FAST program on border security risk and
              implement remedial actions as nceded

                                                             or
              CIW I~ e$ ponse: Concur. One the Beyond the Border initiatives is to "en.hance
              facili ties to s upport trusted trader and traveler programs. ~ In this initiati ve, a review of the
              FAST program will be conducted by CBP and Canadian Border Services Agencies
              (CBSA). As pan of the review, CB P and CBSA will analY7.e FAST and detennine if
              future infrastructure investments art warranted. CBP will determine the be_~t options to
              build and monitor the outcome of FAST program while facil itating known low risk
              ''trustcd tra veler members."

              Completion D3te: December 31. 2012

                                                                   .'Oll OfHC IAI. USt: ONt.Y

                  WARN ING: Tho, dOel/mon l i. FOil on' IC I,' I. US.: ON I.Y (FOUO). II t(Jn la in ' inf(Jrma ti(Jn ' hi mlr bo uompt
                   fr(Jm publ if rtluu undtr tho F.ttdorn of Inforn'llion Atl (5 V.S.C. 55l ). II i~ 10 bt tOn l,oll.d . $IO.td, hndled,
                  t,,",mitt.d. diltr lbultd • .nd d!spastd of In affOrd .nn 'otllh DHS polity . tlltin& to fOUO inform .tion I nd i. not
                  tI'!If: rtlUJtd 10 Ih. p .. bl~ or oth.r pU$(Jopnr' ..-hI' do not h.,-. II ... Iid ~ .... d·to,know- wi lhout prior app.o~.1 of
                                                                 In I .. Ihodud DIIS (Jffidll.




www.oig.dhs.gov                                                                           15                                                        OIG-12-S4 

                                                 OFFICE OF INSPECTOR GENERAL
                                                        Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                   1

                          Wilh regard 10 the sensitivity of Ihe dran report, C BP has identified information
                  within the report requiri ng restricted public access based on a designation of "For Official
                  Use Only" as il exposes vulnerabllilies in the FAST program, which could be exploited by
                  persons seeking to do harm. Accord ingly. CSP's sensitivity and technical commentS w; 1I
                  be provided separately as an attachment to this leiter.

                         We look forward 10 working with you on fut ure reviews. If you have any
                  questions, please have a member of your slafT con lact Kathryn Oapkins, Audit Liaison.
                  Office of Internal Affairs at (202) 344-2 102.

                                                                        Sincerely.

                                                                                       ---a;;;}..
                                                                     ~o~~ -
                                                                        Assistant Com mi ssioner
                                                                        Office of Imernal Affairs




                                                                   FON. on' l e lA!. USE Oi'l'LV

                  WAH-NINe : Th i, dO(Umenl h FQIt O"' ~' I C IAL US£ONLY (FOUO). II tonla ln$ in form . don Ihll nlm)' bt tU mpl
                   from publir rtlUll undrr thl Frudom of InformUlon Arl (5 U.S,C. 551), It is to br (onlroltrd ,Jlorrd, hmndlrd ,
                  Irl nsmllttd. dls tribUltd, and ditpOStd of In U(orda nrt ",'llh I>II S policy relaling to FOUO in form alion a nd i~ nOI
                  10 br ",Inu n 10 Ih t public or oll'ltr ptrs.onnrl ... ll o do nOI lin', a ", lid MlM'td_IO-k na wM" 'ilhoul pria r . pl' ro ~ . 1 ar
                                                                 In IIulhorlud OilS offitM,




www.oig.dhs.gov                                                                        16                                                                 OIG-12-S4 

                          OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Alex Best, Director
   Yeseira Diaz, Audit Manager
   Gloria Medina-Ortiz, Auditor
   Gary Crownover, Program Analyst
   James Diaz, Program Analyst
   Barry Russell, Referencer




www.oig.dhs.gov                         17                     OIG-12-S4 

                           OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Assistant Commissioner, CBP, Office of Field Operations
   Assistant Commissioner, CBP, Office of Internal Affairs
   Deputy Director, CBP, Office of Management and Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                             1S                             OIG-12-S4 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
